<html>
<title> - ONE YEAR UNDER ROUHANI: IRAN'S ABYSMAL HUMAN RIGHTS RECORD</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
       ONE YEAR UNDER ROUHANI: IRAN'S ABYSMAL HUMAN RIGHTS RECORD

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                AND THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 19, 2014

                               __________

                           Serial No. 113-202

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
88-385                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana--5/20/14 
    noon deg.
SEAN DUFFY, Wisconsin--l--5/
    29/14 

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
TREY RADEL, Florida--resigned 1/27/  BRADLEY S. SCHNEIDER, Illinois
    14                               JOSEPH P. KENNEDY III, 
DOUG COLLINS, Georgia                    Massachusetts
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
LUKE MESSER, Indiana--5/20/14 
    noon deg.
SEAN DUFFY, Wisconsin--5/
    30/14 

                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Robert P. George, Ph.D., chairman, U.S. Commission on 
  International Religious Freedom................................     9
Ms. Cler Baheri, member of the Baha'i community..................    44
Mr. Hossein Alizadeh, regional program coordinator for the Middle 
  East and North Africa, International Gay & Lesbian Human Rights 
  Commission.....................................................    51
Mr. Amir Hossein Etemadi, former Iranian political prisoner......    59

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Robert P. George, Ph.D.: Prepared statement......................    12
Ms. Cler Baheri: Prepared statement..............................    47
Mr. Hossein Alizadeh: Prepared statement.........................    53
Mr. Amir Hossein Etemadi: Prepared statement.....................    61

                                APPENDIX

Hearing notice...................................................    82
Hearing minutes..................................................    83
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Prepared statement..............................    84
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    87


       ONE YEAR UNDER ROUHANI: IRAN'S ABYSMAL HUMAN RIGHTS RECORD

                              ----------                              


                        THURSDAY, JUNE 19, 2014

                     House of Representatives,    

          Subcommittee on the Middle East and North Africa and

                 Subcommittee on Africa, Global Health,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committees met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The joint subcommittee will come to 
order.
    After recognizing myself, Chairman Smith, Ranking Member 
Deutch, and Ranking Member Bass, for 5 minutes each for our 
opening statements, I will then recognize other members seeking 
recognition for 1 minute. We will then hear from our witnesses, 
and, without objection, the witnesses' prepared statements will 
be made a part of the record.
    We thank you all for being here.
    And members may have 5 days to insert statements and 
questions for the record, subject to the length limitations in 
the rules.
    The Chair now recognizes herself for 5 minutes.
    It was thought that the human rights situation in Iran 
couldn't possibly get any worse than it was under the tyranny 
of Ahmadinejad. During Ahmadinejad's 8 years in office, Iran 
saw a precipitous increase in the numbers of prisoners of 
conscience, journalists in jail, executions, and the ethnic and 
religious minority communities all suffered a great deal.
    Of course, we cannot forget the 2009 Green Movement in Iran 
in which millions took to the streets to protest Ahmadinejad's 
stay in power calling for reforms. This was an opportunity for 
the United States to lend its support for a reform movement in 
Iran, but instead the administration refused to support the 
Green Movement, and missed a real opportunity to support change 
in a part of the world that is resistant to peaceful change.
    It is, unfortunately, a mistake we have seen with this 
administration too often, and we are seeing the results of its 
inaction and indecisiveness now. Then, along came the so-called 
moderate, Rouhani, and the Western media and the administration 
all tripped over themselves saying he was a man who could bring 
reform to Iran.
    What they were forgetting, or choosing to willfully be 
ignorant of, was the fact that this Rouhani was the consummate 
regime insider, handpicked by the Supreme Leader to be one of 
the finalists in the Presidential selection. It bears reminding 
everyone that no policy--domestic or foreign--gets enacted in 
Iran without Khamenei's say-so, and that includes the Iranian 
regime-sanctioned human rights violations.
    Yet everyone wanted so badly to believe that Rouhani would 
be this reformer, and just like he had done when he was Iran's 
chief nuclear negotiator, he managed to pull the wool over the 
eyes of many. But what we have seen so far in the 1 year since 
Rouhani won the June 14, 2013, selection--and I call it a 
selection because the people of Iran were given a false choice 
of selecting one of Khamenei's handpicked choices.
    Well, according to the most objective analysis, the human 
rights situation in Iran has not gotten better, and in many 
areas it has gotten worse. There have been over 670 executions 
under Rouhani, and over 900 political prisoners remain in jail. 
According to some human rights groups, Iranian authorities have 
executed on average more than two people a day in 2014, many of 
whom have been political prisoners or members of ethnic 
minority communities.
    But the wanton and flagrant human rights abuse practices 
don't just end there. In Rouhani's Iran, the regime continues 
to stifle free speech, freedom of the press, right to assembly, 
jailing bloggers and social media users, and shutting down 
media organizations, and jailing journalists. Some reports 
indicate that there are upwards of 40 journalists and bloggers. 
Iran has the world's second highest number of jailed 
journalists, 100 human rights defenders, and hundreds of 
religious minorities unjustly imprisoned in Iran.
    One of the most endangered groups are the Baha'is, Iran's 
largest non-Muslim religious minority, who have seen their 
community constantly targeted for persecution and imprisonment.
    There are over 150 members of the Baha'i community 
currently in Iran's prisons, including Rozita Vaseghi, who, as 
part of the Tom Lantos Human Rights Commission's Defending 
Freedoms Project, I have adopted as my prisoner of conscience.
    These prisoners of conscience are being held in Iranian 
prisons merely for professing and practicing their religious 
beliefs. And many, like Rozita, have been sentenced to harsh 
prison sentences of 5 years or more where they are placed in 
solitary confinement, subjected to cruel conditions, and denied 
the medical attention they need.
    Christians continue to be intimidated, harassed, and 
detained, including U.S. citizen pastor Saeed Abedini, who was 
just recently taken from his hospital bed, beaten, and thrown 
back in jail, and who has suffered a multitude of injuries at 
the hands of the Iranian authorities.
    Then, of course, there is South Florida resident Robert 
Levinson, who lives in Congressman Deutch's district, and his 
family lives there, who was abducted in Iran over 2,500 days 
ago and is now the longest held captive in U.S. history. 
Despite Iranian promises to aid in the investigation and search 
for him, they have been less than forthcoming.
    The litany of cruel and inhumane human rights abuses that 
continue to occur under Rouhani is seemingly endless. But 
Rouhani knows that all he needs to do is smile and Tweet and 
promise the U.S. and the West that he will cooperate on the 
nuclear issue, and his transgressions against the Iranian 
people will be forgiven or overlooked.
    Is that really how we want America to project our foreign 
policy? It is way past time for the administration to stand up 
to these thugs and to stand up for the people who cannot stand 
up for themselves. If we won't do it, who will?
    I am pleased to yield to the ranking member, my good 
friend, Mr. Deutch of Florida.
    Mr. Deutch. Thank you. Thank you, Madam Chairman, for 
holding today's really important hearing. And thanks to all of 
our witnesses for being here today as well.
    As the world remains focused on Iran's illicit nuclear 
program, we must not--we cannot ignore this regime, which is 
still the world's largest state sponsor of terror, is 
responsible for the detention of three American citizens, and 
is one of the world's worst human rights abusers.
    Today we will shed light on the continued grotesque human 
rights violations that take place in Iran. June 14 marks a year 
since Hassan Rouhani was elected President with the perhaps 
reluctant support of some of Iran's opposition movement. 
Unfortunately, despite Rouhani's campaign promises, the human 
rights situation in Iran remains unchanged. Repression of basic 
rights and discrimination against minority groups has continued 
every single day.
    Congress has passed, and the administration has enacted, 
numerous provisions of Iran's sanction laws, both in the 2010 
Comprehensive Iran Sanctions Accountability and Divestment Act, 
and in 2011's Iran Threat Reduction and Syria Human Rights Act, 
to ban visas, to impose asset freezes and travel bans on those 
persons and entities responsible for human rights abuses in 
Iran.
    Just last week the U.N. Special Rapporteur on human rights 
in Iran, whose mandate was renewed by the U.N. Human Rights 
Council at the end of March, some 8 months into the Rouhani 
presidency, expressed outrage over the alarming number of 
executions that have taken place in Iran this year. Per capita, 
Iran ranks first in the world in terms of executions. According 
to the Iran Human Rights Documentation Center, more than 500 
executions have taken place this year alone, but the Iranian 
Government has only publicly reported on some 125.
    A recent report by Dr. Ahmed Shaheed, the U.N. Special 
Rapporteur, stated that there are at least 895 prisoners of 
conscience and political prisoners incarcerated in Iran. This 
includes political activists, religious minorities, civic 
activists, students, journalists, and other civil society 
leaders. Political prisoners face widespread physical, mental, 
and often sexual abuse.
    Iran continues to discriminate and to perpetrate egregious 
abuses against minorities. The Baha'i, the largest non-Muslim 
religious group in Iran, numbering somewhere between 300,000 
and 500,000, endures denial for jobs and other educational 
opportunities based on group membership, and faces 
discrimination throughout the Iranian judicial system.
    As of last year, 136 Baha'i were being held in Iranian 
prison for religious reasons. And since 2005, 49 incidents of 
arson have been reported on Baha'i property, without a single 
arrest being made for these crimes. In 2010, seven Baha'i 
leaders were arrested and sentenced to 20 years in prison.
    Women are rarely afforded equal treatment in the judicial 
system in Iran. In fact, Iranian courts regard the testimony of 
a woman to be worth half of that of a man. Earlier this year, 
an Iranian woman who had been sentenced to death by stoning for 
adultery was released from prison after the international 
community seized on her case. This is precisely--precisely why 
constant pressure from the United States and our allies is so 
critical.
    Iranian women have recently been persecuted for posting 
pictures of themselves without hijabs as part of the My 
Stealthy Freedom Movement, established by an Iranian journalist 
who has since been publicly denounced on TV. Women are subject 
to fines by the morality police for failing to wear a hijab in 
public. And, shockingly, there are now calls for a well-known 
Iranian actress, Leila Hatami, to be publicly flogged after a 
male director kissed her cheek at the Cannes Film Festival.
    In Iran, the LGBT community is all but silenced. 
Homosexuality is a crime. Iran is one of seven countries where 
those engaging in consensual same-sex relationships can be 
punished, and the punishment is death. Just this week, a 
prominent LGBT poet was arrested. News reports apparently 
accused him of trying to spread homosexuality, as his work was 
published by publishing houses outside of Iran, because he is 
not allowed to freely publish his writing inside his own 
country.
    Free speech and freedom of expression, freedom of the 
press, are virtually non-existent in Iran. We must not allow 
Iran to drop an electronic curtain on its people. The internet 
and all social media in Iran is highly censored, despite the 
fact that both President Rouhani and Foreign Minister Zarif are 
quite active on Twitter.
    The U.S. has the tools to go after those who engage in this 
kind of electronic repression, and we must use them. Executive 
Order 13628, which authorizes the United States Treasury to 
sanction those who engage in censorship or other activities 
that limit the freedom of expression or assembly of the Iranian 
people, must be utilized.
    Madam Chairman, we could literally spend all day sharing 
examples of all of the ways that the people of Iran are 
deprived of their most basic human rights. The U.S. must 
continue to speak out in support, as well as to implement 
policies that bolster education and outreach to Iranian 
society.
    Human rights cannot take a back seat in negotiations with 
Iran. We must commit ourselves, and we must continue to call on 
every nation that we call a partner to not ignore what is going 
on inside of Iran. Any country that values human rights must 
stand up for those rights everywhere.
    I want to thank the witnesses for being here, and I want to 
thank you for what you do.
    And, Madam Chairman, I yield back.
    Ms. Ros-Lehtinen. Thank you very much for an excellent 
statement, Mr. Deutch.
    I am now pleased to yield to the chairman of the 
Subcommittee on Africa, Global Health, Global Human Rights, and 
International Organizations, Mr. Smith of New Jersey.
    Mr. Smith. Thank you very much, Madam Chair. And I think, 
again, working together, the two subcommittees, sends a very 
clear and powerful message on issues, particularly as relates 
to human rights in Iran. So, again, it is great to work with 
you and your subcommittee.
    Madam Chair, the end of this month will mark 2 years since 
Pastor Saeed Abedini had seen or hugged his wife, Naghmeh, and 
his children, Rebecca and Jacob. What started out as a 
meaningful humanitarian trip to build an orphanage for children 
suffering in Iran has tragically left Pastor Saeed's young 
children fatherless for the last few years.
    Pastor Saeed has been arrested in Iran before, but he was 
released and told he could enter and exit the country for 
humanitarian work if he agreed to cease pastoring house 
churches. As Pastor Saeed's wife, Naghmeh, testified before our 
two subcommittees in December, Pastor Saeed accepted the 
Iranian requirement and turned to building an orphanage 
instead, but Iran did not uphold its end of the agreement.
    Pastor Saeed was arrested in September 2012 and remanded to 
a prison notorious for housing Iran's worst criminals. He was 
denied contact with his attorney until just before the trial. 
The trial was a sham. It was not public. He and his attorney 
were barred from participating in key portions of the trial, 
following which a judge sentenced him to 8 years in prison, 
supposedly undermining the security of Iran--what a cruel joke 
that is--by sharing his faith and/or practicing Christianity.
    A lot of the details are unclear, and discussion is very 
difficult as the Iranian Government has denied Pastor Saeed 
Abedini's own lawyers access to the judicial decisions. He has 
suffered periods of solitary confinement, beatings, internal 
bleeding, death threats, and continued psychological torture 
during his 630 days in captivity.
    Although Pastor Saeed was finally permitted to be examined 
this winter by a private physician in Tehran, who determined he 
needed surgery for internal injuries, he was denied any 
necessary treatment. Instead, on May 20, just a few weeks ago, 
Pastor Saeed was brutally beaten at the hospital in front of 
his Iranian family and then returned to prison.
    Unfortunately, Pastor Saeed isn't the only American held 
under questionable and under dire circumstances by the Iranian 
Government. Amir Mazeri Hekmati is a 31-year-old former Marine 
who disappeared while visiting his family in Iran in 2011. He 
was subsequently tried and sentenced to death on charges of 
cooperating with an enemy state and accused of moharab, or 
enmity to God. He has also been accused of being a CIA agent.
    Mr. Hekmati has been an Iranian prisoner for more than 
1,000 days on these trumped up charges. Meanwhile, his father 
is dying of brain cancer and may never see his son again in 
life.
    The Iranian Government is also believed to have imprisoned 
retired Federal FBI agent Robert Levinson. Mr. Levinson 
traveled to Dubai, then to Iran's Kish Island, and hasn't been 
seen since. In March 2011, the administration announced there 
were indications that Mr. Levinson was being held somewhere in 
Southeast Asia, but the Iranian Government has not lived up to 
its promise to fully investigate his disappearance. He has now 
been in captivity for nearly 2,500 days.
    The false imprisonment of American citizens did not change 
under President Rouhani, and one excuse proffered is that 
somehow the Iranian legal system is organized differently than 
the American legal system. Of course we believe that the 
President has huge power. That said, we know that in the United 
States the executive branch investigates, prosecutes, and 
imprisons those convicted of crimes, and the role of the 
judiciary is limited to the trial of cases and the hearing of 
appeals.
    In Iran, the judicial branch investigates and prosecutes 
alleged crimes. The judiciary tries the cases, executes the 
sentences, supervises the prisons, and runs programs that 
purportedly rehab the prisoners. The Chief Justice is also the 
official to whom requests for pardons are initially addressed, 
for it is he who bears the responsibility of making 
recommendations to the Supreme Leader for both pardoning or 
reducing the sentences of convicts within the framework of 
Islamic criteria.
    I, therefore, respectfully call on the Chief Justice. We 
have called on the President many times, and the Foreign 
Minister. Many of us have conveyed strong views directly to 
him, but now we call on the Chief Justice to help resolve these 
cases that have become such a sore point between the United 
States and Iran.
    And, specifically, I ask that the Chief Justice visit or 
appoint a personal representative to visit Pastor Abedini, Mr. 
Hekmati, and Mr. Levinson, in the prisons where they are held 
and that Chief Justice review the integrity of their trial 
processes and instruct the Prosecutor General to release for 
public review the full trial and appeal records, including the 
evidence on which the court relied for each of their cases.
    The Chief Justice is also asked to permit representatives 
of the Swiss Ambassador in Tehran, Giulio Haas, to visit with 
each of these prisoners and to report back to his government, 
and to ours, on the state of their health and the conditions of 
their imprisonment.
    My reading of Article 156 of the Iranian Constitution is 
that it is the judiciary's role to serve as the protector of 
the rights of individuals and society and I call on the Chief 
Justice to implement that.
    Ironically, Iran wants the world to lift sanctions and 
trust them with nuclear capabilities, despite continued and 
violent disregard for fundamental human rights, not just for 
Americans, but for countless other people, especially 
indigenous Iranians. Pastor Saeed, Mr. Hekmati, Mr. Levinson, 
are American citizens, but they have not had their freedom.
    U.N. Special Rapporteur for human rights in Iran, Dr. Ahmed 
Shaheed, warned in March 2014, just a few months ago, that 
hundreds of individuals reportedly remain in some form of 
confinement for exercising their fundamental rights, including 
179 Baha'i, 98 Sunni Muslims, 48 Christians, and 14 Dervish 
Muslims.
    Let me just note, in final, while I am grateful that the 
President raised the case of Pastor Saeed in his call to 
President Rouhani last September, the United States can and 
must do more to secure his release and that of the other two 
Americans. Naghmeh Abedini testified before our committee, you 
will recall, Madam Chair, in December, and she said, ``While I 
am grateful''--this is a quote--``for President Obama's 
willingness to express concern about my husband and other 
imprisoned Americans in Iran, during his recent phone 
conversation with Iran's new President, Rouhani, I was 
devastated to learn that the administration didn't even ask for 
my husband's release when seated directly across the table from 
the leaders of the government that holds him captive.'' She 
said that right there sitting at that witness table.
    She went on to say, ``My husband is suffering because he is 
a Christian. He is suffering because he is an American. Yet his 
own government, at least the executive and diplomatic 
representatives, have abandoned him,'' according to Naghmeh. 
``Don't we owe it to him as a nation to stand up for his human 
rights and for his freedom? We need to redouble our efforts.'' 
And, again, with the deadline coming up on July 20, we have a 
window of opportunity that cannot be squandered.
    Yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Smith, for a 
very eloquent statement. I will now recognize members for 1 
minute opening remarks, and we will begin with Mr. Connolly of 
Virginia.
    Mr. Connolly. Thank you, Madam Chairman. Imagine for a 
moment you are a gay woman, Iranian ethnic minority, whose 
working conditions are deplorable. You would like to take 
action to improve your life. First, your successful effort to 
join the workforce is commended, since it is something only 32 
percent of Iranian women ever realize. And it is presumed your 
husband did not object to your employment, because by law he is 
allowed to. He can legally bar you from the workplace.
    Second, you have eluded charges of consensual same-sex 
sexual activity and have, therefore, avoided possible execution 
or raids on your home. Third, like most Kurds, Arabs, Azeris, 
or Baluchis in Iran, you have persevered through a lifetime of 
government neglect and institutionalized discrimination.
    And, finally, despite overcoming these significant 
obstacles, you are nonetheless arrested for spreading 
propaganda against the regime and forming socialist groups when 
you seek to coalesce your workplace around the issue of 
workplace safety.
    The human rights situation in Iran is Medieval and remains 
bleak, and it is very important we speak out about it.
    Thank you, Madam Chairman. And thank you to the ranking 
member for hosting this hearing.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly. Well put.
    Mr. Chabot, our subcommittee chairman, is recognized.
    Mr. Chabot. Thank you, Madam Chair, and I want to commend 
you and Chairman Smith for continuing this series of hearings 
on Iran, perhaps the most dangerous regime in the world today.
    As we discussed in the markup preceding this hearing, Iran 
continues to be one of the world's leading abusers of 
fundamental human rights. The example of the pies is only one 
of many. The regime persecutes anybody who dares to speak 
publicly, or not so publicly, against the regime, and often 
issues death sentences to Iranians who are charged with 
insulting Islam.
    It has become pretty clear that the so-called moderate 
Rouhani is just another in a long list of Iranian thugs whose 
contempt for his own people's fundamental human rights and 
religious freedom is readily apparent.
    I want to thank you for holding this hearing, as I say, and 
yield back.
    Ms. Ros-Lehtinen. Thank you very much, sir.
    Mr. Cicilline is recognized.
    Mr. Cicilline. Thank you, Chairman Ros-Lehtinen and 
Chairman Smith, and Ranking Member Deutch and Ranking Member 
Bass, for holding today's hearing on this very important issue.
    I would like to thank the witnesses for their testimony 
before the subcommittee this morning, and to say that it is 
really a great honor to be joined by people who exemplify 
courage and a deep commitment in the struggle against injustice 
and human rights abuses.
    Even as we continue to closely monitor negotiations 
regarding Iran's nuclear capability, we also have a 
responsibility to address other risks such as how Iran 
threatens universal values of human dignity, equality, and free 
expression. In a region of the world with a troubling record on 
civil liberties and human rights, especially for women, girls, 
and minorities, Iran stands out as particularly egregious.
    In addition to reports of suppression of speech, lack of 
due process, and discrimination against women and religious 
minorities, I am particularly concerned about the status of 
sexual and gender minorities in Iran. While nearly 80 countries 
in the world still criminalize people for simply being lesbian, 
gay, bisexual, or transgender, Iran is one of the few countries 
that has the death penalty as a potential punishment, a 
position obviously inconsistent with the most basic respect for 
human rights.
    So I thank my colleagues for calling this hearing and look 
forward to the testimony of our witnesses, and yield back, 
Madam Chair.
    Ms. Ros-Lehtinen. Thank you very much, sir.
    And now we will turn to our panel, wonderful witnesses that 
we have. First, we welcome Dr. Robert George, who is the 
chairman of the U.S. Commission on International Religious 
Freedom. Dr. George is also the McCormick Professor of 
Jurisprudence and Director of the James Madison Program in 
American Ideals and Institutions at Princeton University. He 
has taught at Harvard Law School and is a senior fellow at the 
Hoover Institution at Stanford University.
    Welcome, Dr. George.
    Mr. George. Thank you very much, Madam Chairman.
    Ms. Ros-Lehtinen. And we will just quickly introduce the 
other panelists, and then we will begin with you, Dr. George.
    We also have with us Ms. Cler Baheri, who was born and 
raised in Iran, where she was denied entrance to universities 
simply because of her faith. After leaving Iran, she was 
resettled as a refugee in Canada before moving to the United 
States.
    Thank you so much for being with us, Ms. Baheri, and we 
look forward to your testimony.
    And, third, we are so pleased to welcome Mr. Hossein 
Alizadeh, who is the Middle East and North Africa Regional 
Program Coordinator for the International Gay and Lesbian Human 
Rights Commission. Mr. Alizadeh has worked over the last 15 
years in Iran and throughout the region to promote equality and 
to foster cross-cultural understanding and support for the 
civil and human rights of all people.
    We welcome you, sir.
    And, fourth, we welcome Mr. Amir Hossein Etemadi, who is 
the President of the Foundation for the Advancement of Human 
Rights, as well as Editor in Chief of a Persian Web site that 
covers human rights and civil society news in Iran. Because of 
his role in student protests, Mr. Etemadi was imprisoned for 2 
years and in 2010 was forced to leave Iran.
    We welcome all of our witnesses. Your statements will be 
made a part of the record, as I have said. And we will begin 
with the esteemed Dr. George. Thank you, sir.

STATEMENT OF ROBERT P. GEORGE, PH.D., CHAIRMAN, U.S. COMMISSION 
               ON INTERNATIONAL RELIGIOUS FREEDOM

    Mr. George. Thank you very much, Madam Chairman. The 
beliefs defining Iran's regime remain strongly theocratic. Any 
Iranian dissenting from the regime's interpretation of Shia 
Islam may be considered an enemy of the state. Since 1999, the 
United States annually has designated Iran as a country of 
particular concern, a CPC, under the International Religious 
Freedom Act. That means its government ranks among the world's 
worst religious freedom abusers, subjecting dissenting Iranians 
of every description to prolonged detention, torture, and even 
execution.
    The regime's human rights and religious freedom record must 
feature centrally in any assessment of Iran since President 
Hassan Rouhani took office last August. Madam Chairman, the 
record, the picture, is bleak. Iran's already dire religious 
freedom conditions have deteriorated during the Rouhani tenure, 
particularly for Baha'is, Christians, and Muslims belonging to 
minority Sufi and Sunni sects.
    Even members of Iran's Shia Muslim majority have been 
targeted, including Ayatollah Boroujerdi, whom I have pictured 
here, who is a Shia cleric who advocates religious tolerance 
and respect for the liberty of members of Iran's religious 
community's minorities.
    Dissidents and human rights defenders increasingly have 
been targeted, and in several cases executed, for the crime of 
``waging war against God.'' Many prisoners of conscience remain 
in Iran's prisons. Some are noted in the appendix that I will 
provide to my testimony.
    Now, here is a snapshot of what we have----
    Ms. Ros-Lehtinen. Without objection, that list will be made 
a part of the record.
    Mr. George. Thank you, Madam Chairman. Here is a snapshot 
of what has happened under President Rouhani. at least 135 
Baha'is are imprisoned because of their religious beliefs, a 
doubling of the number, Madam Chairman, since 2011. This past 
May marks 6 years of incarceration for seven Baha'i leaders who 
were imprisoned for following their consciences in matters of 
faith.
    I am sorry. This is the Baha'i seven.
    Taking a cue from the regime and media, three Baha'i family 
members this February sustained knife injuries from a masked 
assailant's attack, and a local leader was murdered last 
August. No one has been charged. The crime is committed with 
impunity against the Baha'is.
    Next to the Baha'is, Iran's theocratic government views 
Protestants as its main competitor for Iranian hearts and 
minds. As of February 2014, at least 40 were imprisoned, 
detailed, or awaiting trial. Human rights groups inside Iran 
reported significant increases in Christians physically 
assaulted in prison, and that is meant to intimidate those 
considering Christianity.
    Farshid Fathi, a Christian pastor who ran a house church 
network, was one of those injured. As you can see, he is a 
young man.
    Pastor Saeed Abedini, as several of you have mentioned, an 
Iranian-born American minister of the gospel, is serving 8 
years on the absurd charge of ``threatening Iran's national 
security.'' Here is Pastor Abedini.
    Last November he was transferred to another prison known 
for its harsh conditions. In March, prison authorities beat 
him, as was already mentioned. After he was sent to a hospital 
in May, he reportedly was beaten again and returned to prison.
    During the past year, U.S. policy has included public 
statements, multilateral activity, and imposing unilateral 
sanctions on Iranian Government officials and entities for 
human rights violations.
    At the U.S. Commission on International Religious Freedom, 
we recommend the following, that the U.S. Government should, 
first, include violations of human rights and religious freedom 
within multilateral or bilateral discussions with Iran, and 
work closely with our allies to apply pressure through 
advocacy, diplomacy, and targeted sanctions.
    Number two, continue to designate Iran a country of 
particular concern, and take appropriate actions as enumerated 
under the International Religious Freedom Act.
    Number three, identify Iranian Government agencies and 
officials responsible for the severe violations of religious 
freedom, bar them from entry to the U.S., freeze their assets, 
and, as per the Comprehensive Iran Sanctions, Accountability, 
and Divestment Act, take action. Next, enact for multiple years 
the Lautenberg Amendment, a lifeline for religious minorities.
    Finally, U.S. officials should speak out publicly and 
frequently at the highest levels about human rights and 
religious freedom abuses, advocate for the release of all 
prisoners of conscience, and work with the international 
community to hold authorities accountable. Representatives 
should join the Defending Freedoms Project and the Tom Lantos 
Human Rights Commission, as you, Madam Chairman, and the others 
have done.
    Now, in considering how to engage Iran, let us recall Eli 
Wiesel's pledge to himself as a defender of conscience and 
human rights. He said, ``I swore never to be silent whenever 
and wherever human beings are suffering humiliation. We must 
always take sides. Neutrality helps the oppressor, never the 
victim. Silence encourages the tormentor, never the 
tormented.''
    Iran's religious minorities are not waging war against God, 
but the regime's theocratic rulers are waging war against basic 
human rights of the Iranian people. Their abuses demand our 
attention and action, especially because negotiations on the 
nuclear issue really could divert attention from its 
increasingly egregious human rights and religious freedom 
violations.
    We mustn't let that happen. The U.S. should insist that 
Iran demonstrate its commitment to peaceful intentions abroad 
by ceasing its war at home against its own people and their 
rights.
    Thank you, Madam Chair.
    [The prepared statement of Mr. George follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so very much, Dr. George.
    Ms. Baheri? Thank you.

  STATEMENT OF MS. CLER BAHERI, MEMBER OF THE BAHA'I COMMUNITY

    Ms. Baheri. Chairman Ros-Lehtinen, Ranking Member----
    Ms. Ros-Lehtinen. Hold on 1 second. Let us stop the clock. 
Push the microphone and hold it close to your mouth. Let us 
start the clock again.
    Ms. Baheri. Got it.
    Ms. Ros-Lehtinen. Thank you.
    Ms. Baheri. Chairman Ros-Lehtinen, Ranking Member Deutch, 
and members of the subcommittee, my name is Cler Baheri. I was 
born in Tabriz, Iran, and I am a Baha'i. I want to thank you 
for giving me the opportunity to share my story with you.
    I would like to request that my written statement be 
included in----
    Ms. Ros-Lehtinen. Without objection.
    Ms. Baheri. The Baha'i community of Iran has been the 
target of systemic and severe state-sponsored persecution since 
the Islamic Revolution of 1979. My family and my husband's 
family have experienced this persecution firsthand.
    When the revolution began in 1979, I was 12. My father, 
Mehdi Baheri, had been serving on the local spiritual assembly 
of Tabriz, the elected governing council of the Baha'i 
community in that city. As a result, our house was raided five 
times. And finally, in 1980, my father and several other 
members of the Tabriz assembly, along with two other local 
Baha'is, were arrested and imprisoned.
    In prison, my father was notified that because he was a 
Baha'i, his employment as an accountant with the Ministry of 
Health had been terminated, and salary owed to him was 
canceled. And his retirement funds, which had accumulated over 
the course of 24 years in the civil service, were repossessed.
    My family and I would visit my father once a week. My 
brother and I would take our report cards to show to my father. 
He told us that he was happy that we were doing well in school. 
Once he wrote us a birthday note on a piece of clothing that 
was sent to us to be laundered. In the note he said he needed 
us to understand that he was not in prison for any crime other 
than his belief in the Baha'i faith, and that he wanted us to 
fight for him by continuing to do well in school.
    A few days before his execution, my father was taken in the 
middle of the night into a room with one interrogator and a 
tape recorder. The interrogator fell asleep and my father was 
expected to continue to answer a list of questions that had 
been put in front of him. This was his so-called trial.
    After their trials, my father and the other Baha'is were 
sentenced to death and held in solitary confinement for 24 
hours. During this time, they were given the choice of Islam or 
edam, which means Islam or death. This meant that if they 
recanted their faith and declared themselves to be Muslims, 
their lives would be spared. All of them refused. Instead, they 
declared that they were Baha'is, and for this they were killed.
    On July 29, '81, at the age of 47, my father, Mehdi Baheri, 
was executed. And this is a picture of him.
    My brother was 9 and I was 15.
    When my family was informed of my father's death, one of 
our relatives went to receive the body. The prison authorities 
forced them to pay for the bullets that had taken his life. 
Later that night, the executions were announced on the radio. 
The announcer stated that my father and the others were 
convicted of corruption on Earth and warring against God.
    I finished high school in Iran in 1983. Though I had one of 
the highest scores on the provincial exams, I, like many other 
students across Iran, was denied entrance to university solely 
because of my faith. The next year I left Iran alone, traveling 
on the back of a truck through the desert into Pakistan. I was 
eventually resettled as a refugee in Canada, and I now live in 
Virginia with my husband, Naim Sobhani.
    Naim is also Baha'i, and he is from Tehran. As a young man, 
he was arrested and detained three times in Iran, twice for 
playing jazz in private concerts, and once for possessing 
educational material in his car for Baha'i children. When he 
was arrested for having the children's material, he was 
imprisoned for 2 months and was often held in solitary 
confinement in a small room with no windows. He was 18 at the 
time.
    Naim was also denied admittance to university because he 
was a Baha'i. Soon after, he left Iran alone, traveling with a 
tribal guide through the western mountains into Turkey. After 
being stranded in a mountain village for 5 days during border 
skirmishes, he crossed the border into Turkey. He was also 
processed by the United Nations High Commissioner for Refugees 
and was resettled in Maryland.
    Naim's father, Riaz Sobhani, is currently imprisoned in 
Iran for his efforts to educate Baha'i youth. He had been a 
successful civil engineer, but soon after the revolution he was 
terminated from his job for being a Baha'i, and his salary, 
pension, and savings were seized.
    In the years following the revolution, Baha'i students and 
professors were expelled from universities, and Baha'i youth 
were denied the right to attend university. In 1987, Riaz, my 
father-in-law, along with several other Baha'is, most of whom 
were academics and professionals, who had also lost their jobs 
after the revolution, came together to form the Baha'i 
Institute for Higher Learning, known as BIHE.
    BIHE is an informal network of classes designed to educate 
young Baha'is in a range of subjects, such as biology, 
engineering, psychology, architecture, and law. Materials and 
funds are donated, and the classes are usually held in homes. 
BIHE serves as the only viable avenue through which Iran's 
young Baha'is can obtain higher education.
    My father-in-law, Riaz, has been instrumental in BIHE from 
the beginning, managing administrative work and hosting classes 
in his home. For over 20 years, he and the other dedicated 
faculty and staff of BIHE have been giving freely of themselves 
to ensure that against all odds the next generation of Baha'is 
has a chance to contribute to society.
    In May 2011, there was a series of raids on dozens of homes 
associated with BIHE. Riaz was arrested, along with several 
other Baha'is. He and the others were initially held in 
Tehran's notorious Evin Prison. In October, after a brief show 
trial, he and six other Baha'i educators were convicted of 
membership in the deviant Baha'ist sect, with the goal of 
taking action against the security of the country, in order to 
further the aims of the deviant sect and those of organizations 
outside the country. They were each sentenced to 4 to 5 years, 
with my father-in-law receiving 4 years.
    After their sentencing, Riaz and the others were moved to 
Rajai Shahr Prison in Gohardasht, Iran, where the male 
prisoners were put in the same ward as the members of seven 
imprisoned Baha'i leaders known as the Yaran. In the years 
since then, other BIHE educators have been imprisoned. Thus, 
there are now 12 individuals who are imprisoned solely because 
of their efforts to educate Baha'is.
    And this is a picture of the 12 currently in Rajai Shahr.
    What my husband's family is now living through because of 
my father-in-law's imprisonment is, unfortunately, nothing new. 
Their experience with persecution started long before Riaz's 
current imprisonment. Soon after the revolution, two of Riaz's 
cousins were executed for being a Baha'i.
    When Naim's little brother, Navid, who was 6 years at the 
time passed away, they buried him in a small Baha'i cemetery. 
Soon after, the cemetery was bulldozed and turned into an 
agricultural field. A few years later, Naim's grandmother and 
aunt were arrested and imprisoned for being Baha'is. They were 
held in Evin for 1 year, in solitary confinement for part of 
that time, and they were repeatedly beaten and tortured.
    In the last several years, Naim's younger sister, Zhinoos, 
and her husband, Artin, have both been imprisoned twice. 
Zhinoos, who was also denied admission to university, completed 
her studies in law with BIHE and is now working at the 
Defenders of Human Rights Center, an organization founded by 
Nobel Laureate Shirin Ebadi, who has since----
    Ms. Ros-Lehtinen. Ms. Baheri, if I could impose----
    Ms. Baheri. Sure.
    Ms. Ros-Lehtinen [continuing]. A time limit on your 
statement.
    Ms. Baheri. Okay. Sure.
    Ms. Ros-Lehtinen. So sorry to do so.
    Ms. Baheri. Not a problem. I am almost there. In November 
2013, President Rouhani released a draft citizens rights 
charter. As human rights organizations have noted, it is a 
restrictive and problematic document that raises very serious 
concerns. One of these concerns is that the charter states that 
the rights it enumerates apply only to religious minorities 
recognized by the Iranian constitution, a group that excludes 
Baha'is. In recent months, two Baha'i cemeteries were attacked, 
one in Sanandaj and one in Shiraz.
    I would like to thank the House of Representatives for 
passing on May 28 H.R. 4028, which adds the desecration of 
cemeteries to religious freedom violations under the 
International Religious Freedom Act, and I hope that the Senate 
and the President will agree to this much-needed provision.
    [The prepared statement of Ms. Baheri follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much. Thank you, Ms. 
Baheri, for your powerful testimony. We thank you.
    Ms. Baheri. Thank you.
    Ms. Ros-Lehtinen. And now I am pleased to yield to Mr. 
Alizadeh. Thank you, sir.

STATEMENT OF MR. HOSSEIN ALIZADEH, REGIONAL PROGRAM COORDINATOR 
   FOR THE MIDDLE EAST AND NORTH AFRICA, INTERNATIONAL GAY & 
                LESBIAN HUMAN RIGHTS COMMISSION

    Mr. Alizadeh. Thank you, Madam Chairman, Ranking Member 
Deutch, and the distinguished members of the House Committee on 
Foreign Affairs. Thank you for inviting me to testify today at 
a hearing on Iran.
    Almost 1 year ago, Iranians went to the polls to choose the 
seventh President of the Islamic Republic of Iran. Few people 
in Iran had any illusions about a flawed electoral process or 
the real power of the President in Iran. Over the past three 
decades, elections in Iran have been filled with allegations of 
vote rigging, intimidation, threats against candidates, and, 
more importantly, widespread disqualification of independent 
and opposition candidates by the electoral monitoring body.
    Just last week, on the 1-year anniversary of his election, 
the Iranian President, Hassan Rouhani, himself openly noted 
that elections in Iran have the reputation of being a political 
sham.
    Unlike the United States, Iran's constitution allows 
limited authority to the President of the country. The Office 
of the President in Iran, for example, has no control over the 
army, the intelligence, the police, or key foreign policy 
issues. The real center of power in Iran's politics is the 
Office of the Supreme Leader, Ayatollah Ali Khamenei, who has 
the final political, religious, and military say. Furthermore, 
the Ayatollah's office is exempt from regular checks and 
balances.
    Although these facts may be already known to the 
distinguished members of the committee, a brief mention of them 
may help us to set realistic expectations while evaluating the 
President's performance and his accomplishments. The truth of 
the matter is, within the political dynamics of the Islamic 
Republic, the Office of President cannot be an engine of 
significant change, even at the best of times.
    On a bigger scale, it is neither realistic, nor logical, to 
expect a self-declared theocracy, such as the Islamic Republic 
of Iran, to function as a secular democracy. Over the past 12 
months, the human rights situation in Iran has demonstrated no 
significant improvement in comparison to the status of human 
rights under former President Ahmadinejad.
    The state has continued to carry out a high number of 
executions, including the execution of political prisoners. 
Other instances of human rights violations include 
extrajudicial arrests, house arrests, juvenile execution, 
mistreatment and torture of detainees, regular interference in 
the privacy of citizens, the ban of free speech, and the 
persecution of individuals based on their religious beliefs and 
political opinions.
    I would like here to specifically highlight the plight of 
Iranian gay, lesbian, bisexual, and transgender individuals. 
Iran's penal code continues to prescribe the death penalty for 
consensual same-sex relations. The official media and top 
publications, and top officials, including Iran's Supreme 
Leader, Ayatollah Khamenei, regularly attack homosexuality as a 
Western conspiracy and a sign of moral decay.
    Individuals suspected of being gay, lesbian, or transgender 
face systematic acts of violence and discrimination. Newspapers 
are shut down for publishing opinion pieces about same-sex 
relations. Security forces raid private parties of suspected 
LGBT people and subject them to beating, humiliation, and the 
confiscation of property.
    Professors and students are forced to leave universities 
for organizing academic discussions about gender and sexuality. 
Even worse, acts of violence against suspected LGBT family 
members often go unpunished and unnoticed. As a result of those 
oppressive realities, every year hundreds of LGBT individuals 
leave their home country and seek asylum in the West, including 
the United States. I am one of them.
    I am of course horrified by the human rights violations 
occurring in Iran, but I do believe that Rouhani's presidency 
provides an opportunity for the Iranian people and the 
international community to successfully demand more freedom for 
the people of Iran.
    Unlike its predecessor, Rouhani seems to believe in less 
government control, more international trade, and a stronger 
role for academic and professional communities. No one can or 
should mistake Rouhani for a champion of human rights. However, 
he appears willing to make small improvements and seems to have 
the political and social capital to do so.
    The United States Government has a moral obligation to 
provide opportunities and resources for the Iranian people in 
order to give them broader access to information about human 
rights standards and personal freedoms, especially through 
funding technology to fight internet censorship and to develop 
informative resources in Persian.
    The political opening created by Rouhani's election should 
be utilized through significant investment in public awareness 
to counter the notion that human rights are not compatible with 
Iranian traditions and values. Also, it is very important to 
keep in mind that the authorities in Iran should take note that 
the West is not really interested in its bottom line or 
lucrative oil business.
    They need to know that the international community cares 
about human rights records of Iran and to take action of 
positive and negative developments in that regard. More 
importantly, human rights protection should not be a footnote 
or in the fine print of bilateral and regional negotiations. 
The United States and the West should speak loudly and clearly 
about the importance of human rights and make sure to discuss 
this topic in every conversation.
    Thank you.
    [The prepared statement of Mr. Alizadeh follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, sir.
    And now, pleased to yield to Mr. Etemadi. Thank you.

STATEMENT OF MR. AMIR HOSSEIN ETEMADI, FORMER IRANIAN POLITICAL 
                            PRISONER

    Mr. Etemadi. Madam Chairman, Ranking Member Deutch----
    Ms. Ros-Lehtinen. Hold on a second. We will stop the clock, 
and we will put that mike right in front of you. Thank you.
    Mr. Etemadi. Thank you. Madam Chairman, Ranking Member 
Deutch, and members of the subcommittee, thank you for this 
opportunity to testify before you today.
    I am Amir Hossein Etemadi, a former Iranian political 
prisoner and the current spokesman of Iranian Liberal Students 
and Graduates.
    What motivated me to speak at this hearing is the 
continuation of the systematic and widespread violation of 
human rights and suppression of basic freedom of Iranian 
people, along with the efforts of the international community 
to prevent the Iranian regime from achieving nuclear weapons.
    Today, the Islamic Republic of Iran, under pressure of the 
sanctions, has been forced to inevitably submit to parts of the 
international community's requests on its nuclear case. It 
would not be off the mark to claim that the election of Hassan 
Rouhani in June 2013 was due to this pressure. On the contrary, 
the noteworthy silence of the international community in the 
face of human rights violations in Iran has encouraged the 
Islamic Republic to further expand and aggravate violation of 
the Iranian people's rights.
    According to a report by human rights watchers, since 
Hassan Rouhani's election, at least 750 people, including 38 
political prisoners, have been executed. Almost all of them 
were deprived of their rights to due process and a fair trial. 
In the past year, arrests, issuance, and enforcement of prison 
sentences for religious minorities, including Baha'is, 
Christian converts, Sufis, and Sunni Muslims, have been 
continued.
    Rouhani's government, like its predecessors, does not 
recognize followers of the Baha'i faith as a religious 
minority, and they are still banned from attending 
universities. On the other hand, despite all his promises 
during the Presidential campaign to release the political 
prisoners, especially Mehdi Karroubi, Mir Hossein Moussavi, and 
Zahra Rahnavard, the Green Movement leaders have been under 
house arrest since February 2011. Not only Mr. Rouhani did 
nothing for them, even more journalists and bloggers, human 
rights defenders, labor and civic activists, students, cyber 
activists, and dissidents have been arrested in the past year.
    Moreover, while Facebook and Twitter continue to be 
blocked, Ayatollah Ali Khamenei, the Supreme Leader, and Hassan 
Rouhani, along with other members of the government, such as 
Foreign Minister Javad Zarif, are active on these social 
networks.
    Iran State TV, which has a monopoly on visual audio media 
in Iran, still has an important role in censorship and false 
propaganda of the Iranian regime against its opponents. 
Terrestrial jamming of satellite signals by transmitting rogue 
and strong electromagnetic frequencies have been intensified 
since the new government has taken office to an extent that 
their possible health hazard and link to cancer have been 
discussed in Iranian local media.
    Ladies and gentlemen, at such time, I, as individual who 
has experienced detention, torture, and harassment by the 
Iranian regime for my peaceful political activities, ask you to 
place the Islamic Republic's human rights dossier on the 
nuclear negotiation table, and tie the final resolution of the 
latter to settling of Iran's human rights file.
    I believe that the U.S. and its allies at least could ask 
Iranian authorities to be committed to their international 
obligations on these specific cases. One, agreeing to a trip to 
Iran by Mr. Ahmed Shaheed, United Nations Special Rapporteur, 
on the situation of human rights in Iran, and granting him the 
permission to freely meet with the victims of human rights 
violations.
    Two, ending transmission of rogue frequency aimed at 
jamming satellite signals, in accordance with Iran's 
obligations as a member of International Communication 
Associations. Three, commitment to free elections, in 
accordance with Declaration on Free and Fair Elections passed 
by Inter-Parliamentary Union in 1994 to which Iran is a 
signatory.
    I would also like to ask you to, firstly, ensure full 
adherence of the U.S. Government to the existing sanctions 
against violators of human rights and those individuals 
involved in crackdown and suppression of the dissidents. 
Secondly, place Ayatollah Khamenei, Islamic Republic Supreme 
Leader, and all the financial and military organizations under 
his control, as the main responsible party and orchestrator of 
human rights violations in Iran, on the list of the sanctions.
    Keeping The Execution of Imam Khomeini's Order, EIKO, and 
the Islamic Revolutionary Guard Corps, IRGC, and their 
subsidiaries on the list would have two results. It ensures 
that the release of frozen Iranian funds, which belong to 
Iranian people, would not be controlled by oppressive 
organizations, and also it would intensify the pressure on the 
violators of human rights.
    Thank you.
    [The prepared statement of Mr. Etemadi follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, all of you, for 
powerful testimony.
    I will begin the question and answer period. We have heard 
the harsh realities of the human rights situation in Iran. Dr. 
George, sadly, Iran is not alone. Part of your Commission's 
mandate by law is to review the ongoing facts and circumstances 
of violations of religious freedom around the world, present 
that in your annual review, make policy recommendations to the 
President, to the Secretary of State, and to us in Congress, 
with respect to matters relating to international religious 
freedom.
    How many countries are currently listed by the State 
Department as a country of particular concern due to their 
ongoing and systematic violations of religious freedom? How 
many did your Commission recommend to be listed? When was the 
last time a new country was designated as a country for 
particular concern by the State Department?
    And why does the administration repeatedly overrule your 
Commission's recommendations? Is this symptomatic of the larger 
problem that the United States is dropping advocating for 
religious freedom and human rights so low on our foreign policy 
agenda? Have we been using all of the tools available to us--
namely, sanctions--to promote religious freedom and human 
rights?
    And let me just ask the questions, and we will have all of 
you respond. And, Ms. Baheri, thank you, again, for your 
testimony, telling your story, a story that unfortunately is 
not unique to just you as a member of the Baha'i community.
    In your testimony, you talked about Rouhani's Citizen 
Rights Charter, and this was part of his so-called reform 
agenda. But, as you note, it raises very serious concerns, the 
least of which that it still does not recognize the Baha'i as a 
religious minority. Do you believe Rouhani has ushered in an 
era of reform and moderation, or is he really just another man 
in part of the inner circle of the Supreme Leader who has 
managed to fool so many with his smooth talking and empty 
promises, the so-called window of reform?
    And, Mr. Etemadi, you have been a political prisoner of the 
Iranian regime. In your testimony, you say that the silence of 
the international communities, in the face of ongoing human 
rights violations in Iran, has actually encouraged Rouhani and 
the regime to even further expand these abuses and curtail the 
rights of his people.
    Has the rush by the media in the West to anoint Rouhani as 
a reformer, a moderate, blinded us to his real nature because 
we want to believe that he can change Iran? And the 
administration's push for a nuclear deal without pursuing the 
human rights track as well, has emboldened the Iranian regime 
to continue committing these atrocities without repercussions.
    And we will begin with Dr. George, if you could be brief in 
your remarks.
    Mr. George. Thank you, again, Madam Chairman. I want to 
address one of the points you made well into your question, and 
that is this question of silence, international silence, 
silence sometimes from those of us here in the United States.
    As I said in recent testimony to Chairman Smith's 
committee, there is a time and place for quiet diplomacy, yes. 
I can tell you some examples from our own experience at the 
Commission where that time and place have existed, but most of 
the time staying quiet simply encourages the human rights 
abusers to continue the human rights abuses. Most of the time 
what we need are vocal forms of resistance, criticism of these 
abusive regimes, and that is certainly true here with Iran.
    Madam Chairman, currently the State Department designates 
eight countries as countries of particular concern, the worst 
religious freedom abusers. These are Burma, China, Eritrea, 
Iran, North Korea, Saudi Arabia, Sudan, and Uzbekistan.
    We currently are recommending eight additional countries. 
Some of them have been our recommendations for several years, 
but, as you noted, those recommendations haven't always been 
taken. The countries that we are recommending but have not been 
designated as countries of particular concern are Egypt, Iraq, 
Nigeria, Pakistan, Syria, Tajikistan, Turkmenistan, and 
Vietnam. We list Pakistan at the very top of our list of 
offending nations, which have not yet been designated as 
countries of particular concern. If there is one country at the 
top of the list that should be so designated, as I have 
recently testified, that is Pakistan because of the horrific 
abuses that take place there, including abuses, again, against 
the Baha'i community.
    The last designations by the State Department were in 2011, 
I believe. We strongly advocate annual designations. If annual 
designations aren't made, the designations become, in the words 
of my colleague, the vice chairman of our Commission, Katrina 
Lantos Swett, the daughter of the great Tom Lantos, the human 
rights activist and Congressman, as she says, these 
recommendations become part of the wallpaper and nobody notices 
them anymore.
    We really need the annual designations, and we are pressing 
our leadership. Whether it is a Republican administration or a 
Democratic administration, doesn't matter.
    Ms. Ros-Lehtinen. Thank you.
    Mr. George. We want them to make these designations on an 
annual basis.
    Now, as far as why our recommendation----
    Ms. Ros-Lehtinen. And I am going to just stop you a second, 
because I asked too many questions, but I am going to give a 
chance to----
    Mr. George. Oh, sure.
    Ms. Ros-Lehtinen [continuing]. Ms. Baheri to respond, and 
Mr. Etemadi.
    Ms. Baheri. Thank you. As you mentioned, with respect to 
the Baha'is in particular, the rights discussed in the charter 
apply only to religious minorities officially recognized by the 
Irani constitution, which excludes Baha'is.
    As to Mr. Rouhani's moderate practices, as an Iranian, I 
have been hopeful. And, as a Baha'i, we are strictly non-
violent and obedient to the government we live in. We 
participate in non-partisan politics.
    We have noticed that in the last year, since Mr. Rouhani's 
presidency, we have had cemeteries that have been desecrated, 
we have had Mr. Rezvani killed, and a family stabbed in their 
home in February 2014, and there has been no progress in the 
investigation of their case.
    Just as of yesterday, there was a report from the Baha'i 
International News that in January this was the catalogued 
anti-Baha'i articles that were on Web sites, and so forth. In 
January, there was 55; in February, there was 72; in March, 
there was 93; April, 285; and, in May, there were 366 anti-
Baha'i. So----
    Ms. Ros-Lehtinen. Thank you very much.
    Ms. Baheri. Yes.
    Ms. Ros-Lehtinen. And Mr. Etemadi?
    Mr. Etemadi. Thank you. Actually, the real problem in Iran 
is under the hand of Ali Khamenei, Supreme Leader. And, as I 
said, the election of Hassan Rouhani was the result of 
international pressure to decrease this pressure.
    Actually, Rouhani doesn't have enough power to change the 
situation of human rights in Iran, and I don't think, though, 
even if he had, he would change anything here, because he is 
not reformist. As we know, he is very close to Mr. Khamenei, 
and actually I think it is to show--the regime to show him as a 
reformist.
    Ms. Ros-Lehtinen. Thank you very much. Thank you.
    Pleased to yield to the ranking member, Mr. Deutch, for his 
question and answer period.
    Mr. Deutch. Thank you, Madam Chairman.
    Thanks to the witnesses for being here. It is almost 
overwhelming. It is--the breadth of abuses in Iran is almost 
too difficult for us to get our arms around. So I would like to 
try to approach it a different way.
    Dr. George, I know you focus on religious freedom, and I 
appreciate what you do. Let me start with the other witnesses--
--
    Mr. George. Sure.
    Mr. Deutch [continuing]. Though. We are viewing all of this 
as a human rights issue. But I would like you to speak to the 
Americans, the American people, to help us understand, help 
them understand what it means in each specific area. Ms. 
Baheri, what would you say to the religious community in our 
country to help them understand--help them feel the type of 
persecution that the Baha'i undergo in Iran.
    Ms. Baheri. Well, it is simple. It has been nothing except 
wanting to practice our basic rights, to be able to be married 
as Baha'is, to be able to go to school, to be able to continue 
education, and all for the sake of really just being Baha'i and 
refusing to recant your faith. Simple.
    Mr. Deutch. Mr. Alizadeh, to the LGBT community in America 
who are engaged, to the leaders, help them understand the 
relevance of what is happening to the community in Iran.
    Mr. Alizadeh. I just want to emphasize that the issue is 
not specific to LGBT community. It is a broader issue and goes 
back to----
    Mr. Deutch. Mr. Alizadeh, I understand that, and I 
appreciate it. And my point is, it is so broad----
    Mr. Alizadeh. Right.
    Mr. Deutch [continuing]. That for those of us who spend a 
lot of time thinking about human rights issues and how to 
uphold human rights, and universal human rights around the 
world, that is how we approach it. I am trying to personalize 
this for people who may not think much about Iran, perhaps 
don't think much about foreign policy, but absolutely 
understand and focus on their own community.
    Mr. Alizadeh. It is as easy as this. As a person, your 
individuality, your privacy, is constantly being violated and 
scrutinized by the government. The government decides how much 
rights you have based on who you are, what sexual orientation 
or gender identity you have, even what gender you have.
    As Congressman Smith pointed out, there is a difference 
between the rights of men and women in Iran. So everything has 
been categorized. And depending on which category you belong 
to, your right differs. So for the LGBT community, they do not 
exist--as former President Ahmadinejad put it, they don't 
exist. The official narrative is that they don't exist; 
therefore, they have no rights.
    And so the government continues to violate the rights of 
LGBT people on the basis that this is a form of perversion. 
This is not a human behavior that can be recognized.
    And I just want to point out something else. Just last week 
the Parliament of Iran issued a formerly classified report by 
the Minister of Education that shows almost 20 percent of 
students in Iran have homosexual tendency. So we are talking 
about a sizeable portion of population whose right is being 
violated on a daily basis.
    Mr. Deutch. I appreciate that.
    Mr. Etemadi, for students in America who are engaged in 
politics, for civic leaders, for community leaders, people who 
just want to express themselves, can you talk about the type of 
persecution they would experience in Iran?
    Mr. Etemadi. I want to introduce my friend, Maryam 
Shafipour. She is a student--actually, she is banned from going 
to university after Green Movement protest in 2009. And after 
Rouhani's election, she was arrested by Intelligence Ministry 
just because she was active in the Presidential campaign. And 
she was sentenced to 7 years jail, and since last July she is 
in jail, and she should be in jail for another 3 years.
    Maryam Shafipour is just one of my friends. Majid Tavakoli 
has been in jail since 2009. Hamid Babai has been in jail since 
2009, and many more of my friends are in jail at the moment, 
and they will be in jail just because their peaceful political 
activities.
    Mr. Deutch. I appreciate it. Mr. Etemadi, just to finish, 
as I said before, a lot of us talk about human rights. But to 
look at those rights that are being violated, Ms. Baheri, to--
for Americans to understand--America, with freedom of 
religion--to understand the type of persecution that the 
Baha'i--and, Dr. George, as you pointed out, other religious 
groups face in Iran.
    And, Mr. Alizadeh, to think that--for Americans to stop for 
a moment to think about what it would be like to be persecuted, 
to be subject to death, frankly, because of your sexual 
orientation; and, Mr. Etemadi, for you to help us understand, 
for students, for people who take views that are in opposition 
to the government, the threats, the possibility of going to 
jail, the persecution that they face, that is I think how we 
need to think about it here. These are tremendous violations of 
universal human rights.
    And, finally, to journalists who face the same thing in 
Iran, to journalists in this country, I would suggest the same 
thing. Think about what it would be like for you in Iran, and 
let all of us be guided by those notions of how our own lives 
could be turned upside-down because of what we believe, who we 
are, the way we voice our opinions.
    I am so grateful for your being here today to help shed 
light on that for us. It is very moving testimony that I hope 
moves all of us, not just on the committee, but as a nation.
    Mr. Chairman, I yield back.
    Mr. Smith. Thank you very much, Mr. Deutch.
    Mr. Etemadi, thank you for underscoring the importance of 
human rights being on the table when discussions of issues of 
nuclear weaponry are at hand. How do you trust a totalitarian 
regime on fissile material, on enrichment issues, whether or 
not they have a bomb or plan on making bombs--it is plural, not 
singular--when they so maltreat and torture and murder their 
own people as well as three Americans who are being held 
unjustly.
    You know, Naghmeh Abedini testified at our hearing that we 
had here in December, and before that at a Frank Wolf hearing 
as part of the Lantos Commission, and at the Wolf hearing, 
shockingly, the administration told Naghmeh that there was 
``nothing we can do'' to help her. Astounding.
    Thankfully, Secretary Kerry, when he heard that, did 
reverse course at the State Department. But, frankly, it still 
is not part of the negotiating. It may be somewhere on the 
periphery, but far off the periphery it would seem to me.
    Yesterday I chaired a hearing on human rights in North 
Korea. We heard from Ambassador-at-Large from the Republic of 
Korea, Ambassador Lee, who talked about a grand mobilization on 
behalf of the North Koreans who are being decimated by the 
newest Kim, Jong-un, and talked about the gulags and really 
just laid out how horrific the mistreatment really is.
    Andrew Natsios, Special Envoy to Sudan, formerly USAID 
Administrator and now co-chair of a North Korean human rights 
effort, talked about the abject failure of the nuclear talks 
and the delinking of human rights to those and how human rights 
had grossly deteriorated because they were not even on the 
table and people were not subjected to relief that they might 
have gotten.
    The same issue is being replayed with Iran. We have done it 
on trade issues with China. We are doing it on trade issues 
with Vietnam and many others. But the North Korea and the 
Iranian situations absolutely are appropriate parallels, and it 
is very, very discouraging that it is not there front and 
center. Again, how do you trust a regime that butchers its own 
people?
    I would say to Ms. Baheri, in 1983, I joined President 
Reagan at the White House when they had a mobilization and 
President Reagan spoke out boldly how alarmed and dismayed we 
were at the persecution of Baha'i in Iran. And he talked about 
the 150 men and women who had been hanged or shot since 
Khomeini had come in. One of those was your Dad, obviously, and 
my greatest sympathy, from all of us on behalf of the 
committee, for your enormous loss.
    Not surprisingly, just like the Chinese, they made your 
family pay for the bullets that murdered your father. Again, 
underscoring why human rights have to be front and center and 
not on the peripheral negotiations, if they are that.
    So thank you for being here and bearing witness.
    Dr. George, on the CPC issue, which you spoke so eloquently 
to when you were here testifying before my subcommittee just a 
few weeks ago, I think members have to realize since 2011 not a 
single CPC designation has been made. That is also Frank Wolf 
legislation, the International Religious Freedom Act and it 
called for annual designations, and frankly, like you said, 
wallpaper.
    We don't have those designations and a robust enforcement, 
there are some 18 prescribed sanctions that were meant to be 
utilized when a country showed indifference or, worse, would 
double down and make things even worse. You talked about how 
things have gotten worse under Rouhani. Not even a designation 
since 2011.
    So I make a call again to President Obama. Designate CPC 
countries. Do it now. And as you have recommended, there are 
many more that ought to be added to the current list, again, 
which are just languishing and there has been nothing done. We 
don't even have an Ambassador-at-Large.
    I say to my colleagues, I chaired the hearings and marked 
up the bill for the International Religious Freedom Act in this 
room back in 1998. This is not what we envisioned, a non-
enforcement of that very important piece of human rights 
legislation.
    So, Dr. George,I would like to ask you, you pointed out in 
your testimony that official policies promoting anti-Semitism 
have risen sharply in recent years, and Jews have been targeted 
on the basis of perceived ties to Israel. Could you elaborate 
on that?
    You point out the issue of sanctions. You know, I wrote the 
Belarus Democracy Act. We worked very closely with the 
Europeans on who we sanctioned in the Lukashenka regime in 
Minsk. The people on both sides that are sanctioned, it is 
almost the same people, if not identical. You point out that 
the European Union has 90 people that have been sanctioned to 
our one, and you are encouraged that there is at least one, the 
Mayor of Tehran, but where are the others? We have the law in 
place to do it. Ninety to one. If it was a World Cup score, it 
would be a blowout. We need to update and add to that list.
    Mr. George. Yes, thank you, Congressman Smith. I will take 
a moment to address the particular issues that you wanted me to 
talk about. We have noticed--our staff has noticed that since 
Rouhani assumed the presidency, there has been a toning down of 
the anti-Jewish rhetoric that we had seen from government 
officials during the Ahmadinejad period.
    But what we haven't seen is any corresponding diminution of 
the pressure against the Jewish community as there are still 
20,000 Jews remaining in Iran, a fraction of what was once a 
flourishing and large community there.
    So, yes, there has been a toning down of the rhetoric, but 
no real action to make things any better, any different for the 
Jewish community. Like all the religious minority communities 
in Iran, they are third-class citizens or worse, and always 
subject to harassment of all sorts. So we don't have any good 
news to report beyond the rhetorical side for the Jewish 
community in Iran.
    Were you asking me particularly about the Jewish community 
in Iran? Because before your committee, of course, I talked 
about----
    Mr. Smith. You testified it has gotten worse.
    Mr. George [continuing]. Anti-Semitism globally.
    Mr. Smith. But also about the sanctions regime and its----
    Mr. George. Yes. We need those annual designations. We 
really do. You are right to urge the administration. We urge 
the administration to do that. We urge every administration--
doesn't matter whether it is Republican or Democrat--to make 
those annual designations, to call attention to the offenses, 
and then to use those sanctions that are available under the 
Act, which was passed by Congress, signed into law in the 1990s 
by President Clinton. They are there to be used. They are 
effective tools when they are used.
    We saw this about a decade ago when the tools were used 
very effectively against Vietnam when it was a very gross 
abuser of religious freedom. We saw some real benefits for 
persecuted religious people, Buddhists and Christians alike, in 
Vietnam. We then removed them from the CPC list to encourage 
the good behavior we had seen, to reward the progress that had 
been made, and, unfortunately, they slipped right back into 
their old patterns of behavior and became an abuser again.
    And so we find ourselves in 2014 recommending that Vietnam, 
for example, again be shifted over to CPC status. That is 
another designation that we would like to have made. But we 
need to follow the law here. We really need to make those 
designations. They need to be annual. We need to bring pressure 
on these regimes.
    Mr. Smith. And, again, on the sanctions enforcement with 
regard to holding individual violators, like we have done with 
Belarus, Magnitsky Act, we have it now----
    Mr. George. Exactly right. The tools are there in the 
legislation to put travel restrictions on people, officials who 
are responsible for the brutality and for the abuses, to freeze 
assets. Those tools are available as well. You know, make the 
people who are responsible for these human rights abuses, 
whether they are actually committing the abuses, or whether 
they are tolerating them and letting them occur with impunity, 
make them pay a cost, make them suffer a cost.
    The tools are there right in the legislation. Let us use 
it.
    Mr. Smith. Again, just before I yield back, Andrew Natsios 
is one of the finest public servants I have known. Yesterday, 
as I said, he talked about North Korea and the abject failure 
of delinking human rights from the Six-Party Talks. We have 
delinked human rights from the talks on nuclear issues vis-a-
vis Iran. It is a mistake.
    My hope is it is never too late to relook at that, and I 
would encourage the administration, especially with the 
deadline coming up with the three Americans, but also on behalf 
of those Iranians who are suffering daily indignities and 
torture, to put human rights on the table and be bold about it, 
have names and lists.
    One of the things that Reagan did so excellently throughout 
his entire time when he was President, and Shultz, when he was 
Secretary of State, wherever they went, especially to the 
Soviet Union, before they met with Soviet officials, they met 
with the dissidents and they proffered a list and said, ``We 
want progress on that, because it is linked to everything else 
we do.''
    Mr. Connolly. Would my colleague yield for just a question 
on that?
    Mr. Smith. Sure.
    Mr. Connolly. Does my colleague agree that--because we just 
passed, as you know, the North Korean sanctions legislation. 
Does my colleague agree that there is a clear link between 
sanctions and the elevation of the issues he so eloquently has 
just described?
    Mr. Smith. Well, definitely.
    Mr. Connolly. I am sorry?
    Mr. Smith. Sanctions I think, when they are judiciously 
applied, effectively--and I think targeted sanctions are the 
best, and I think our witnesses have pointed that out, you 
know, we don't want to hurt the Iranian people. We stand with 
the oppressed, not the oppressor.
    Mr. Connolly. Yes. I was just picking up on the North Korea 
thing.
    Mr. Smith. Sure.
    Mr. Connolly. Yes. Thank you so much.
    Mr. Smith. Thank you.
    Thank you. And I recognize I guess--Mr. Cicilline, were you 
next, or over here? Oh, Mr. Connolly is recognized. I am sorry.
    Mr. Connolly. I thank the chair, and I welcome our panel.
    Dr. George, you are on the U.S. Commission on International 
Religious Freedom. But listening to your testimony and your 
answer to questions, I am assuming you agree that we can't 
cherrypick which groups we advocate for or which groups we say 
deserve special protection.
    It is the whole panoply of human rights and human rights 
violations that we need to be concerned about. Would that be an 
accurate statement on my part?
    Mr. George. Well, I am here today----
    Mr. Connolly. I know. That is why I read your----
    Mr. George [continuing]. On behalf of the Commission on 
Religious Freedom, so I am constrained by the legislative 
mandate that we have to stay within those boundary lines. So 
what I can talk about are religious freedom abuses.
    Now, very often religious freedom abuses are linked to 
other abuses, for example abuses of freedom of speech and 
association, and so forth, with respect to religious 
minorities. And so in those circumstances our Commission feels 
as though it is within our mandate to call attention to those 
abuses because they bear on religious freedom abuses.
    Mr. Connolly. Right.
    Mr. George. But there are nine of us. We represent a range 
of viewpoints on a wide range of issues. We are united on the 
basic commitment to religious liberty. But in order to avoid 
anyone--any member of the Commission, including the chairman, 
speaking out of turn, offering his own personal opinions, which 
might not be shared by the other commissioners, we, in our 
capacity as commissioners, and I in my capacity as chairman, 
stay within the lines.
    Mr. Connolly. Yes. But--all right. Let us stay within your 
rubric. Would it be advisable if the Congress and the 
administration were to decide what we are going to focus on 
this year is the persecution of Roman Catholics in Iran. 
Therefore, we are not going to be talking about the Baha'is or 
Jews or any other religious group, because we are pretty much 
focused on that one. What would that do to your mandate, and 
what do you think--what kind of message would that send to 
Iran?
    Mr. George. Well, our mandate is to advocate on behalf of 
the religious freedom rights of all people.
    Mr. Connolly. Thank you.
    Mr. George. So we don't distinguish----
    Mr. Connolly. Right. That is my point. We don't cherrypick. 
And although your mandate has to do with religious freedom, you 
might take the point, by extension, that we don't want to be 
cherrypicking human rights either, just as we don't within your 
purview.
    Mr. George. I am sure that is true, and of course there are 
many important philosophical and political debates about the 
nature of rights, the contours of rights, whether such and so 
is in fact a right or is not a right. Those are disputes that 
you have in the Congress and that we have among the American 
people.
    Mr. Connolly. How do you deal with sort of the cultural 
barriers? So, for example, I mean, America was founded by some 
pretty passionate founders who wanted to make sure that there 
were careful boundaries--in fact, Jefferson referred to them I 
believe as firewalls--between the state and religion. And some 
of them actually professionally cut their teeth on exactly 
that.
    Madison spent his early professional career in my home 
state of Virginia fighting against the established church of 
Virginia. He wanted religious liberty for other non-
establishment groups, especially the Anabaptists.
    And so to what extent--to what extent is it a cultural 
issue? Iran doesn't have that tradition. Iran is an 
overwhelmingly unitary denomination, and you could--one could 
understand--not justify, but one can understand, therefore, 
there is going to be tension when people are sort of outside 
the norm religiously.
    How do you, in your mandate, and to what extent does the 
United States, have to understand the difference between, you 
know, you are crossing a boundary that we cannot accept, and 
that is persecution and not justified, versus cultural identity 
that we have to try to respect and work with.
    Mr. George. Well, that is an excellent question, 
Representative Connolly. You are right. Iran is different from 
the United States in that we do have the separation--what we 
call the separation of church and state. That is not a phrase 
that exists in our constitution, but it describes the basic 
theory of the relationship of the institutions of religion and 
the institutions of government under our constitutional system, 
and especially, of course, under the First Amendment. They 
don't have that. They don't have that state-church separation.
    But our state-church separation should not be interpreted 
to mean a separation of religion from public life. Religion has 
always played a very important role in our public life. George 
Washington, in his farewell address, noted that religion and 
morality are essential the flourishing of any community of 
freedom, any political order that aspires to be a set of free 
institutions.
    John Adams said that our constitution is for a moral and 
religious people and will serve well no other. So we can 
understand the relationship between religion and state in other 
societies, including in Iran where religion is an important 
part of the picture, because religion is an important part of 
the picture in the United States.
    And we don't see it as something separate. We don't say 
Martin Luther King should not have spoken in terms of the Bible 
or the brotherhood of all men and attacking racial injustice 
and segregation. So we don't have the Laicite system, for 
example, of France and some other European jurisdictions. We 
don't treat religion as the enemy of politics or something that 
is purely private and should never be brought into the public 
square.
    Culturally, we value the role of religion in public life.
    Mr. Connolly. Stipulated.
    Mr. George. So the big difference of course is, do we 
respect the right of everyone, irrespective of faith, including 
those who have no faith, those who are atheists, who are 
unbelievers, to follow their consciences precisely in matters 
of faith. We believe in that very strongly. We did from the 
beginning in the United States. It is written into our 
Constitution.
    Even before we had a First Amendment, our Constitution has 
a prohibition of religious tests for public offices. Anybody of 
any faith can hold any office under the United States. And we 
have committed ourselves, as have many other nations, including 
Iran, to international human rights standards with respect to 
religious freedom.
    So we are really simply asking Iran to live up to those 
standards. We are not saying disestablished religion. That is 
not our plan. We understand you can have a different system 
from ours. We are just saying respect the equal rights of 
freedom of religion for the Baha'is, for the Jewish community, 
for the Christian community, for the minority Muslim 
communities, whether they are Sunni or Sufi or whatever they 
are. That is really all we are asking.
    We are not trying to be cultural imperialists and impose 
the American system. We understand they have a different 
system. That is okay. We are not trying to force them into a 
Jeffersonian constitution. But we do say live up to the 
requirements that you yourselves have signed on to in 
international documents by respecting the religious freedom of 
the minorities.
    Mr. Connolly. I think that is a very important statement 
and distinction.
    Mr. Chairman, if I can just ask one more question, 
different topic. Thank you, Mr. Chairman.
    Mr. Alizadeh, you said--am I pronouncing that correctly?
    Mr. Alizadeh. Yes. Yes.
    Mr. Connolly. You said, ``I want to highlight LGBT 
persecution.'' And I wanted to kind of come back to the theme I 
was asking Dr. George in his lane about you can't cherrypick 
which denomination you are going to protect. It is the whole 
thing.
    I am a little concerned that sometimes some of my 
colleagues want to highlight certain human rights abuses, and 
never talk about others. And it seems to me that if we are 
going to be consistent, and we are going to hold somebody to a 
norm, every group is entitled in a society to human rights 
protection, whether they be Baha'is, whether it be women, 
whether they be gay and lesbian brothers and sisters.
    Could you talk to us a little bit about that? Because I am 
really worried that if some of our human rights advocates here 
in the Congress kind of conspicuously never talk about that, we 
send a signal unintentionally to the regime that is not a 
signal we want to send. But maybe I am wrong. What is your 
sense of that?
    Mr. Alizadeh. Mr. Congressman, I just want to thank you 
very much for highlighting the cultural problems. The root of 
the issue in Iran is cultural issues, and I think that that 
needs to be acknowledged and highlighted.
    We talk about a region that has seen a number of rounds of 
regime changes and revolutions in neighboring countries, and 
one after another we see that the situation is getting worse in 
terms of the rise of minorities and respect for human rights in 
neighboring Iraq and Afghanistan, in Egypt, in Syria. In all of 
those countries we see that a simple regime change does not 
result in improvement of human rights.
    I just want to acknowledge that this is a social problem, 
and we need to deal with it as a social phenomenon. As such, we 
have to invest in the society. We just can't hope for a regime 
change or the change of the President's approach to fix the 
issues.
    But going back to your question, I want to mention that we 
really think that this is not about LGBT people. It is about 
sexual rights, about autonomy over your body, about the rights 
of individuals to decide who they want to love, and about equal 
rights between men and women. So this is a broader issue. We 
are not really talking about a specific segment of the society.
    I am very aware that when we talk about Iran we are talking 
about a society where heterosexuals don't have rights. If you 
are walking down the street with your boyfriend, you know, as a 
woman, you can be arrested. And any form of sexual encounter 
outside marriage, heterosexual marriage, is a crime.
    So this is outrageous. So when we talk about LGBT issues, I 
want to emphasize that we really hope the right will be 
provided to all Iranian citizens, regardless of their sexual 
orientation and gender identity. This is about the right of 
individuals to decide what they want to do with their body, 
regardless of the interference of the government. The 
government does not have the right to tell people what to do in 
the privacy of their houses.
    People can decide what they want to do with their body and 
talk about the issues that they are interested in. And a lot of 
issues when we talk about LGBT issues are also related to 
general rights, such as right of freedom of speech, right of 
freedom of assembly. So we are not really talking about a very 
specific segment of the society or a very specific subcategory 
of rights. We are talking about the general rights that 
everybody in the society is entitled to.
    Mr. Connolly. Thank you.
    Mr. Chairman, thank you for your graciousness.
    Mr. DeSantis. No problem. The gentleman's time has expired.
    The Chair now recognizes himself for a period of 5 minutes. 
I appreciate you guys coming. You know, I think this issue of 
Iran is very important. And I would just like to say before I 
ask my questions, I was really alarmed this weekend when I was 
hearing rumblings, not just from the administration, but from 
members of my own party, that the way to deal with what is 
going on in Iraq is to work with Iran. And I think that that 
has died down a little bit, and I think rightfully so.
    We do not have mutual interests with Iran. They are 
diametrically opposed, and they are a mortal enemy of the 
United States. And I think that the imposition of a Sunni 
Sharia state in the Levant is contrary to our national 
interest, but I also think we have to recognize Iran is a 
mature terror state and a mature Sharia state. So aligning to 
them would not serve our national interest.
    And I would just say, given that, I am concerned about the 
administration's decision to continue to send money to this 
unity government with the Palestinian authority. They may have 
a veneer of technocratic leadership, but Hamas is a part of 
that government. That money is going to end up going to Hamas 
in one way or another, given that money is fungible. And guess 
who that aligns us with. That aligns us with Iran, because they 
send money and they fund Hamas.
    And so I am going to be working with some of my colleagues 
to stop that money while Hamas is a part of that government. 
And I think that is very important.
    Professor George, I appreciated what you said, and I think 
you described kind of our history with religious liberty and 
establishments very ably. But I wonder, in terms of viewing 
Iran--and I think you said, look, they are going to have their 
own system. Maybe they have an established church or whatnot, 
but it is more than just that.
    I mean, these Ayatollahs, their version, you know, how they 
want to have a Sharia society, it is much more than just 
religion. It is a whole kind of sociopolitical, totalitarian 
ideology.
    And so you could look at, like, the United States. Even 
after the Constitution, we had states like Connecticut that had 
established churches still, but they were not active in that 
way. So I guess this idea of Sharia being so broad seems to me 
to be more than just about whatever religion you believe in, 
because there are millions and millions of people who are 
Muslims who do not subscribe to the overall political ideology 
that comes with that.
    Mr. George. Yes. That is absolutely right. You can have an 
established religion. In the United States, we prefer not to 
have that. We disestablished our churches in the States. I 
think the last ones died out in the 1830s. But Britain has the 
Anglican Church. It has an established religion. But it is 
respectful of the rights of religious minorities.
    I lived in Britain myself for 5 years, so when I was a 
graduate student, and as a visiting scholar, I was not a member 
of the established church, but I was entirely free to practice 
my own religion. So we wouldn't want to say to the British, 
``Well, you have an obligation under human rights to 
disestablish the Anglican Church.'' They might for their own 
reasons wish----
    Mr. DeSantis. But that, and when you lived there, the 
Anglican Church did not permeate society to the detriment of 
other people, right?
    Mr. George. That is exactly right.
    Mr. Connolly. Although they do discriminate against our 
Catholic people on who can be on the throne.
    Mr. George. Yes. I think that is still true. Yes, I believe 
that is still true. But you have put your finger on the real 
problem. It is not that there is an official religion as such; 
it is that in the name of this theocratic rule, a kind of 
totalitarianism is imposed. All dimensions of life are under 
control of the theocratic rulers.
    No one else's rights are respected. No one who is not a 
member of the faith. And even those who have dissenting 
opinions about politics within the Shia faith are persecuted. I 
mentioned one of the Ayatollahs showed a picture of--I will do 
it again here--Ayatollah Boroujerdi, who himself is a Shia, but 
is, nevertheless, persecuted because he speaks out on behalf of 
the rights of non-Shia Muslims and non-Muslims.
    Mr. DeSantis. And just to kind of flesh that out, and 
maybe, Mr. Etemadi, you can speak, so in Iran, if you convert 
away from Islam, that is a crime, correct?
    Mr. Etemadi. Yes.
    Mr. DeSantis. And what type of punishment could you get? 
You could potentially be put to death for that?
    Mr. Etemadi. Yes. Exactly.
    Mr. DeSantis. And I have been following this. I think 
during the Easter season the government raided Christian 
churches. That would be something that would be par for the 
course there?
    Mr. Etemadi. Yes.
    Mr. DeSantis. You can be convicted of a crime if you insult 
Islamic sensibilities, is that correct?
    Mr. Etemadi. Yes.
    Mr. DeSantis. And Iran still imposes severe punishments, 
such as stonings and mutilation, under their law, correct?
    Mr. Etemadi. Yes.
    Mr. DeSantis. And is that something that is called for by 
Sharia law, or where do they come from, these punishments? How 
are those developed?
    Mr. Etemadi. It comes from Sharia.
    Mr. DeSantis. Okay.
    Mr. Etemadi. Yeah.
    Mr. DeSantis. And it was interesting, because I was--I read 
that the Ayatollah Khamenei was speaking about freedom, and he 
says, ``Iran, we have freedom unlike any other country in the 
world,'' and then he pointed to Europe and he says, ``You know, 
they talk about freedom of speech, but go ask them about the 
Holocaust. They are not free to deny the Holocaust.'' Like we 
don't know whether--he says, ``We don't know whether it existed 
or not.''
    And so, in his mind, he thinks that because we don't have 
these grand debates about something that is obvious, if you 
study history, that somehow we don't have freedom of speech, 
but I think what his freedom--and this is somehow, we talk past 
folks in the Middle East when we say, ``Well, why wouldn't they 
want Freedom?'' Some people, such as these Ayatollahs, for them 
freedom is freedom to live under Sharia, correct?
    Mr. Etemadi. Yes.
    Mr. DeSantis. And so when we say ``freedom,'' they view the 
freedom differently than we do. But I think that what you guys 
have testified about his very important. I am 100 percent the 
people in Iran are struggling for freedom. I think the tragedy 
of this Islamic revolution is that, you know, it has really 
served to snuff out a lot of the vitality that you had seen 
historically throughout Persian society.
    And I know that there are a lot of people in Iran who are 
suffering under the yoke of this dictatorship, who would be 
like-minded with folks, not just in the United States but 
throughout the West. So I commend you guys for speaking out, 
and I commend the chairman for holding this committee.
    And with that, my time has expired, and I will recognize 
the gentleman from Rhode Island for a period of 5 minutes.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you, again, to our witnesses for this very compelling 
testimony. I hope that it will cause this committee and this 
Congress to focus more energy on the issue of international 
human rights. I would like to begin with you, Mr. Alizadeh. Did 
I pronounce that correctly?
    Mr. Alizadeh. Yes.
    Mr. Cicilline. You didn't even know I was talking about you 
it was so badly pronounced. [Laughter]
    I want to ask you, first, I know that the journalist who 
responded to former President Ahmadinejad, who made the claim 
that there were no gay or lesbian people in Iran, was 
imprisoned. And I wondered, what is the status of that 
individual today? Is he still in prison?
    Mr. Alizadeh. Yes. There were a couple of cases that 
happened since then. So there was a journalist who used to work 
for the Iranian News Agency, and he had a personal blog. And 
basically on his blog he started to talk about issues 
including, you know, the existence of homosexuality in Iran. 
And that was later listed as one of the charges against him by 
the Revolutionary Court, and he ended up in jail.
    As late as last month, there was another case, a newspaper 
published an article. This is basically a reformist newspaper 
that is running on a daily basis in Tehran. They pushed an 
editorial about homosexuality, and the next day it was shut 
down by the court, because they were promoting basically 
homosexuality in the country. So any conversation about this 
issue is considered to be propaganda against Islam, and so it 
is banned basically.
    Mr. Cicilline. Okay. And the laws, the discriminatory laws 
that criminalize homosexuality in Iran, they were renewed as 
recently as 2013, right before Rouhani became President. So 
what is the likelihood that we will see any progress or any 
movement on this issue if, as you say, the Supreme Leader is 
the one who sets policy? And, you know, is there any reason for 
us to be hopeful?
    And what can we do as a country to increase the likelihood 
that there will be basic human rights accorded to all 
individuals regardless of sexual orientation in Iran, and in 
other places in the world? Do we have any ability to impact 
what is clearly a horrific, discriminatory, unsafe environment 
for people who are gay and lesbian?
    Mr. Alizadeh. Congressman, I really think that the issue 
here is not the government. The government is hopeless. They 
are not really going to change. What I am really hoping, both 
for LGBT people and also for religious minorities, and about 
political activists, is to promote tolerance within the 
society. And the United States can play a very critical role in 
this game.
    I will just mention one example. We started a program about 
2 years ago to basically talk to journalists about the language 
that they use to talk about LGBT issues, that this is not a 
sexual issue, this is a human rights issue. And in 2 years you 
can see that society's approach has changed. Even though the 
outside media are banned inside Iran, but people are hungry for 
information. They want a new country. They want to understand 
what is going on, because nobody believes the government 
propaganda. And this is a good thing.
    So we have a lot of resources at our disposal. We have the 
biggest basically broadcast operation on the planet called VOA, 
just, you know, a few miles from here. So we can really do a 
lot with our resources in order to communicate with the Iranian 
people, to teach them the values of tolerance in civil society 
in coexistence.
    And I think that that is the kind of long-term investment 
that we need to see in Iran and in other countries, and I am 
really hoping that the new generation would not buy that 
stereotypes and kind of narrow-mindedness that the government 
is defending as part of their ideology on a daily basis.
    Mr. Cicilline. And hopefully our continuing to raise this 
issue in hearings like this and in other settings will help to 
advance that as well.
    Ms. Baheri, thank you for being here today. It was--you 
know, I am from a state that prides itself on having been 
founded by Roger Williams on the principle of religious 
freedom. And so the idea that people would be not only denied 
the ability to practice their own religious traditions, but 
that they would face imprisonment and execution is such an 
anathema to I think all Americans and to all civilized people 
in the world. And I am sorry that you had the experience that 
you did and that there are thousands and thousands of others 
who have had the same experience all over the world.
    And my question really is, what can we do as a country, 
what can we do as a Congress, that would have some positive 
impact on the ability of religious minorities in places like 
Iran to exercise their religious freedoms and to be able to do 
so without facing harassment, discrimination, and imprisonment?
    What are the--and I ask, actually, any of the panelists who 
have something to contribute. What can we do? You know, we hear 
this testimony, which I think most Americans would find 
horrifying and disturbing, and recognize that there has to be 
some action we can take, some steps we should take to respond 
to this, to have some impact.
    So I would start with you, Ms. Baheri, and anyone else who 
might----
    Ms. Baheri. Well, as a country, I think we can definitely 
make sure that Iran is on notice that it is being watched. So 
anything the State Department has done, and will continue 
hopefully to do, would definitely be appreciated and helpful on 
all accounts of human rights, for all of people of Iran.
    Also, there is a House Resolution 109 that is in front of 
this committee. So if--I believe 130 Congressman have passed it 
so far. So if anyone has not, they are encouraged to do so, and 
that would be, again, a stance that Iran is being watched, and 
it would definitely be more than helpful.
    Mr. Cicilline. Dr. George, you look like you----
    Mr. George. Yes. One concrete thing to do, Congressman, is 
at the moment the Lautenberg Amendment has to be readopted 
every year. Why not go ahead and adopt it for a period of 
several years. It is a tremendous tool. It enables people who 
are persecuted to have the protection of refugee status. It 
enables them to transit through other countries to get to the 
United States when they are being persecuted.
    It would be not only substantively very valuable in terms 
of assisting people who are under severe persecution or threat 
of persecution. Symbolically, I think it would also be sending 
an important message. It is a very concrete thing Congress can 
do.
    Mr. Cicilline. Thank you.
    Mr. Alizadeh. Congressman, I just want to reiterate, in my 
opinion, people like Rouhani and Ahmadinejad come and go. The 
problem is the darkness that this regime has been promoting for 
three decades, and we have to counter it with knowledge and 
information and education.
    And I think that the Congress can play a very key role by 
funding resources and allow basically the societies to talk to 
each other, and people inside Iran to have access to 
information. The government is actually trying--the Government 
of Iran denies their access to free information, and I think by 
allowing them to learn about themselves, their rights, their 
existence, and how the international community and this--
basically the West functions, I think we can inspire them to 
create a better society for themselves.
    Mr. Etemadi. What you can do for human rights issues in 
Iran, in one word--pressure. If pressure works on the nuclear 
issue, it will work on the human rights issue. And maybe you 
remember Iranian people in--during Green Movement asked 
President Obama. ``Obama, Obama, be with us, or with the 
government.'' And, unfortunately, President Obama ignored that, 
and Iranian people have a positive view about United States. If 
you want to change this view, so ignore the human rights.
    Mr. Cicilline. Thank you.
    I thank the chairman for the indulgence.
    Ms. Ros-Lehtinen. Thank you. No. Thank you very much, Mr. 
Cicilline.
    Thank you to the witnesses for sharing their personal 
stories with us, their bravery and the suffering that they have 
endured. Ms. Baheri, losing family members; and, Mr. Etemadi, 
being in jail. And thank you, Mr. Alizadeh, for bringing so 
much awareness to us; and, Dr. George, for holding up the 
photographs of real victims of the persecution that is going on 
daily in Iran. Thank you for the brave work of your Commission. 
We look forward to adopting their recommendations very soon.
    And to our audience, thanks for being here today with us.
    And, with that, the subcommittee is adjourned.
    [Whereupon, at 12:04 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
